APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Charles Braye, 19-13884
(September 30, 2020) ................................................................................................ A-1
Order Denying Motion for Reduction of Sentence .................................................... A-2
Judgment imposing sentence .................................................................................... A-3

A-1

Case: 19-13884

Date Filed: 09/30/2020

Page: 1 of 5

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-13884
Non-Argument Calendar
________________________
D.C. Docket No. 2:04-cr-14029-KAM-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BRAYE,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(September 30, 2020)

Before GRANT, LUCK, and EDMONDSON, Circuit Judges.

Case: 19-13884

Date Filed: 09/30/2020

Page: 2 of 5

PER CURIAM:

Charles Braye, a federal prisoner proceeding through his lawyer, appeals the
district court’s denial of his request for a sentence reduction under the First Step
Act of 2018. * No reversible error has been shown; we affirm.
In 2004, a federal grand jury returned an indictment charging Braye with
possession with intent to distribute “five grams or more” of crack cocaine, in
violation of 21 U.S.C. §§ 841(a), (b)(1)(B) (Count 1), and with possession of a
firearm during a drug trafficking offense, in violation of 18 U.S.C. § 924(c)(1)(A)
(Count 2). Braye pleaded guilty to both counts pursuant to a written plea
agreement. The plea agreement listed the amount of crack cocaine involved in
Count 1 as “5 grams or more.”
During Braye’s plea hearing, the government described the factual basis for
the plea agreement. Among other things, the government said that the total weight
of crack cocaine seized from Braye was 30.3 grams. Braye agreed with the
government’s factual basis and pleaded guilty.
The Presentence Investigation Report (“PSI”) calculated Braye’s base
offense level as 28 based on a finding that Braye was responsible for 30.3 grams of
crack cocaine. The PSI then applied a career-offender enhancement under

*

First Step Act of 2018, Pub. L. No. 115-391, § 404(b), 132 Stat. 5194, 5222.
2

Case: 19-13884

Date Filed: 09/30/2020

Page: 3 of 5

U.S.S.G. § 4B1.1(b) and a 3-level reduction for Braye’s acceptance of
responsibility. Based on the resulting total offense level of 31 and a criminal
history category of VI, Braye’s advisory guideline range was calculated as 262 to
327 months’ imprisonment.
The district court sentenced Braye to 262 months for Count 1, plus a
consecutive 60-month sentence for Count 2. We later dismissed Braye’s direct
appeal as barred by the valid appeal waiver contained in Braye’s plea agreement.
In August 2019, Braye filed a counseled motion to reduce his sentence under
section 404 of the First Step Act. Braye sought a sentence of either time-served
(182 months) or 210 months, which he said would be sufficient to achieve the
goals of sentencing under 18 U.S.C. § 3553(a).
The district court denied Braye’s motion in September 2019. The district
court first concluded that Braye was ineligible for a sentence reduction under the
First Step Act. The district court determined that -- based on the amount of crack
cocaine Braye admitted to possessing (30.3 grams) -- Braye’s advisory guidelines
range would remain unchanged. The district court also said that Braye’s admitted
drug quantity would still trigger the same statutory penalties after passage of the
Fair Sentencing Act of 2010.
In the alternative, the district court also denied Braye’s motion for a reduced
sentence for this reason:
3

Case: 19-13884

Date Filed: 09/30/2020

Page: 4 of 5

Moreover, even if Defendant is considered eligible for consideration
of a reduction of his sentence, this Court does not believe defendants
who admitted having sufficient quantities of cocaine base to trigger
the statutory penalties now in effect after the passage of the Fair
Sentencing Act should be treated differently than those being charged
under the law currently in effect. Hence, even if Defendant is eligible
under the First Step Act for a sentence reduction, the Court would
exercise its discretion under 18 U.S.C. § 3553(a) to deny Defendant a
reduction of his sentence.

After the district court denied Braye relief under the First Step Act -- and
while this appeal was pending -- we issued our decision in United States v. Jones,
962 F.3d 1290 (11th Cir. 2020), in which we addressed the meaning and proper
application of section 404 of the First Step Act. Based on Jones, the government
now concedes that Braye’s Count 1 drug offense constitutes a “covered offense”
under section 404(a) of the First Step Act and, thus, that Braye is eligible for a
reduced sentence. We agree that -- under Jones -- the district court erred in
concluding that Braye was ineligible for relief under the First Step Act.
That Braye is eligible for a reduced sentence under the First Step Act does
not mean, however, that he is entitled to relief. The district courts retain “wide
latitude to determine whether and how to exercise their discretion” in granting a
sentence reduction. Jones, 962 F.3d at 1304. In exercising that discretion, district
courts may consider “all the relevant factors,” including the 18 U.S.C. § 3553(a)
sentencing factors. Id. We review for abuse of discretion the denial of an eligible
movant’s request for a reduced sentence under the First Step Act. Id. at 1296.
4

Case: 19-13884

Date Filed: 09/30/2020

Page: 5 of 5

Here, the district court explicitly determined that -- to the extent Braye was
eligible under the First Step Act -- the district court would exercise its discretion to
deny Braye’s motion for a sentence reduction based on the section 3553(a) factors.
In particular, the district court discussed the nature and circumstances of Braye’s
offense and the need to avoid unwarranted sentencing disparities among similarlysituated defendants.
Braye raised no challenge to the district court’s alternative ruling in his
initial appellate brief. When -- as in this case -- “an appellant fails to challenge
properly on appeal one of the grounds on which the district court based its
judgment, he is deemed to have abandoned any challenge of that ground, and it
follows that the judgment is due to be affirmed.” See Sapuppo v. Allstate
Floridian Ins. Co., 739 F.3d 678, 680 (11th Cir. 2014).
AFFIRMED.

5

Case: 19-13884

Date Filed: 09/30/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

September 30, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-13884-CC
Case Style: USA v. Charles Braye
District Court Docket No: 2:04-cr-14029-KAM-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Carol R. Lewis, CC at (404) 335-6179.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

A-2

Case 2:04-cr-14029-KAM Document 57 Entered on FLSD Docket 09/19/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 04-14029-CR-MARRA
UNITED STATES OF AMERICA,
Plaintiff,
vs.
CHARLES BRAYE,
Defendant.
/

ORDER ON MOTION FOR REDUCTION OF SENTENCE
THIS CAUSE is before the Court upon Defendant’s Motion for Imposition of a Reduced
Sentence Pursuant to Section 404 of the First Step Act [DE 50]. This Court having reviewed
the pertinent portions of the record and being duly advised in the premises, it is hereby
ORDERED and ADJUDGED that the Motion is DENIED.

Based on the amount of

crack cocaine Defendant admitted possessing during his change of plea colloquy, his advisory
guideline range does not change. Defendant admitted to possessing with the intent to distribute in
excess of 30 grams of cocaine base. [DE 53-1 at 29, 39].

Therefore, Defendant admitted

possessing with the intent to distribute an amount of cocaine base sufficient to trigger the
statutory penalties now in effect after the passage of the Fair Sentencing Act of 2010. This case
does not present a situation where the Court has made a factual finding which would increase
Defendant’s statutory maximum sentence in violation of Apprendi v. New Jersey, 530 U.S. 466
(2000) and Alleyne v. United States, 570 U.S. 99 (2013). See United States v. Means, 2019 WL
4302941 *2 (11th Cir. September 11, 2019)(unpublished)(the First Step Act did not modify the
1

Case 2:04-cr-14029-KAM Document 57 Entered on FLSD Docket 09/19/2019 Page 2 of 2

process by which the district court determines the quantity of drugs attributable to a defendant
for sentencing purposes).
Moreover, even if Defendant is considered eligible for consideration of a reduction of his
sentence, this Court does not believe defendants who admitted having sufficient quantities of
cocaine base to trigger the statutory penalties now in effect after the passage of the Fair
Sentencing Act should be treated differently than those being charged under the law currently in
effect. Hence, even if Defendant is eligible under the First Step Act for a sentence reduction, the
Court would exercise its discretion under 18 U.S.C. § 3553(a) to deny Defendant a reduction in
his sentence.
DONE and ORDERED in West Palm Beach, Florida, this 19th day of September, 2019.

KENNETH A. MARRA
United States District Judge

Copies provided to:
All counsel

2

A-3

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 1 of 6

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 2 of 6

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 3 of 6

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 4 of 6

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 5 of 6

Case 2:04-cr-14029-KAM Document 31 Entered on FLSD Docket 11/17/2004 Page 6 of 6

